No. ______
In the

Supreme Court of the United States
__________________
JUN XIAO,
Petitioner,
v.
REGENTS OF THE UNIVERSITY OF MINNESOTA, ET AL.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
Supreme Court of the State of Minnesota

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Attorney for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
Whether the state district court erred in dismissing
Petitioner’s 42 U.S.C. § 1983, Fourteenth Amendment
equal protection claim for failure to state a claim upon
which relief can be grated.
Whether the lower courts, given the facts,
wrongfully employed and misapplied a heightened
scrutiny standard rather than the deferential Turner
standard? See Turner v. Safley, 482 U.S. 78 (1987).
Whether the Fifth and Fourteenth Amendments can
prevail a state status (Minn. Stat. § 606.01) when
deciding whether students can be awarded monetary
relief for their property damages (education right is a
property right).
Whether students at a state-owned university
should have the same federal legal rights as students
at private universities when state-owned university
students suffered property loss.
Whether maliciously acting government officials
should be awarded “qualified immunity” in terms of
First Amendment retaliation.

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceedings before this Court are
as follows:
Jun Xiao, Petitioner
Regents of the University of Minnesota, et al.,
Respondents
LIST OF PROCEEDINGS
STATE OF MINNESOTA IN SUPREME COURT
Case No. A18-0646
JUN XIAO, an individual v. Dr. Raquel Rodriguiz,
individually and in her official capacity, et al.
Petition for further review DENIED dated 8/6/19.
STATE OF MINNESOTA IN COURT OF APPEALS
Case No. A18-0646
JUN XIAO, an individual v. Dr. Raquel Rodrigues,
individually and in her official capacity, et al.
District Court determination AFFIRMED, for the same
reasons dated 5/6/19.
STATE OF MINNESOTA, FOURTH JUDICIAL
DISTRICT COURT
Court File No. 27-CV-16-12740
JUN XIAO, an individual v. Dr. Raquel Rodriguiz,
individually and in her official capacity, et al.
Defendants’ motion for summary judgment is
GRANTED dated 2/22/18.

iii
STATE OF MINNESOTA, FOURTH JUDICIAL
DISTRICT COURT
Court File No. 27-CV-16-12740
JUN XIAO, an individual v. Regents of the University
of Minnesota, et al.
Defendant’s motion to dismiss GRANTED for all issues
except 42 U.S.C. § 1983 Retaliation claim dated
2/17/17.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN THIS COURT . . . 1
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND
REGULATIONS INVOLVED . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
A. Factual Basis for the Writ . . . . . . . . . . . . . . . . . . 5
REASONS TO GRANT THIS PETITION. . . . . . . . 11
I.

THE MINNESOTA SUPREME COURT,
COURT OF APPEAL, AND THE DISTRICT
COURT (COLLECTIVELY, “MN COURTS”)
HAVE DECIDED AN IMPORTANT
QUESTION OF FEDERAL LAW THAT HAS
NOT BEEN, BUT SHOULD BE, SETTLED
BY THIS COURT . . . . . . . . . . . . . . . . . . . . . 11

II.

MN COURTS HAVE DECIDED AN
IMPORTANT FEDERAL QUESTION IN A
WAY THAT DIRECTLY CONFLICTS WITH
RELEVANT DECISIONS OF THIS COURT
IN TERMS OF PROPERTY PROTECTION . 14

v
III.

THE MN COURTS DECIDED AN
IMPORTANT § 1983 QUESTION THAT IS
NOT CONSISTENT WITH THE
DECISIONS OF OTHER COURTS AND
CONFLICTS WITH § 1983 AND
AMENDMENTS; THIS COURT SHOULD
SETTLE THESE DISCREPANCIES
INCLUDING THE APPLICABILITY OF
THE TURNER STANDARD . . . . . . . . . . . . . 19

IV.

PETITIONER’S DUE PROCESS RIGHTS
WERE
VIOLATED
BY
THE
RESPONDENT’S BAD FAITH QUASIJUDICIAL PROCEEDING, AND HIS CASE
SHOULD BE ALLOWED TO GO TO A FAIR
TRIAL; THIS COURT NEEDS TO DECIDE
THE IMPORTANT QUESTION IN THIS
REGARD . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

V.

THE MN COURTS WRONGFULLY MADE
A DECISION BASED ON ABSOLUTE
IMMUNITY THAT CONFLICTS WITH A
PREVIOUS DECISION OF THIS COURT;
MN COURTS’ DECISION WILL RESULT IN
SERIOUS CONSEQUENCES . . . . . . . . . . . 29

VI.

THE AVAILABILITY OF PUNITIVE
DAMAGES SHOULD BE CONSIDERED IN
THE CONTEXT OF AMENDMENTS AND
IN THE LIGHT OF NATURE OF LAW. . . . 34

vi
VII.

AS THE LAST RESOURCE FOR JUSTICE
IN THIS NATION, THIS COURT IS
OBLIGATED TO MAINTAIN THE
INTEGRITY IN THE U.S. HIGHER
EDUCATION. . . . . . . . . . . . . . . . . . . . . . . . . 34

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
APPENDIX
Appendix A Order in the State of Minnesota in
Supreme Court
(August 6, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the State of Minnesota in
Court of Appeals
(May 6, 2019) . . . . . . . . . . . . . . . . App. 2
Appendix C Order in the State of Minnesota
District Court, County of Hennepin,
Fourth Judicial District
(February 22, 2018) . . . . . . . . . . App. 27
Appendix D Order in the State of Minnesota
District Court, County of Hennepin,
Fourth Judicial District
(February 17, 2017) . . . . . . . . . . App. 39

vii
TABLE OF AUTHORITIES
CASES
Albright v. Oliver,
510 U S. 266, 144 S. Ct. 807, 127 L. Ed. 2d 114
(1994). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Alsides v. Brown Institute, Ltd.,
592 N.W.2d 468 (Minn. Ct. App. 1999) . . . . . . . 13
City of Newport v. Fact Concerts, Inc.,
453 U.S. 247, 101 S. Ct. 2748, 69 L. Ed. 2d 616
(1981). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
DuBose v. Kelly,
187 F.3d 999 (8th Cir. 1999). . . . . . . . . . . . . . . . 19
First English Evangelical Lutheran Church of
Glendale v. County of Los Angeles,
482 U.S. 304 (1987). . . . . . . . . . . . . . . . . . . . . . . 14
Forrester v. White,
484 U.S. 219 (1988). . . . . . . . . . . . . . . . . . . . . . . 33
Goss v. Lopez,
419 U.S. 565 (1975). . . . . . . . . . . . . . . . . . . . 11, 16
Grutter v. Bollinger,
539 U.S. 306 (2003). . . . . . . . . . . . . . . . . . . . . . . 24
Hartman v. Moore,
547 U.S. 250 (2006). . . . . . . . . . . . . . . . . . . . . . . 32
Hazelwood School District v. Kuhlmeier,
484 U.S. 260 (1980). . . . . . . . . . . . . . . . . . . . . . . 23

viii
Jackson v. Birmingham Board of Education,
544 U.S. 167 (2005). . . . . . . . . . . . . . . . . . . . . . . 28
Jacobs v. United States,
290 U.S. 13 (1933). . . . . . . . . . . . . . . . . . . . . . . . 14
Knick v. Township of Scott, Pennsylvania,
No. 17-647, 588 U.S. ____ (2019) . . . . . . . . . 14, 17
Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992). . . . . . . . . . . . . . . . . . . . . . 14
Lugar v. Edmondson Oil Co.,
457 U.S. 922 (1982). . . . . . . . . . . . . . . . . . . . 19, 20
Pullman-Standard v. Swint,
456 U.S. 273 (1982). . . . . . . . . . . . . . . . . . . . . . . 29
Roe v. Humke,
128 F.3d 1213 (8th Cir. 1997). . . . . . . . . . . . . . . 19
San Diego Gas & Elec. Co. v. San Diego,
450 U.S. 621 (1981). . . . . . . . . . . . . . . . . . . . . . . 14
Sullivan v. Little Hunting Park, Inc.,
396 U.S. 229 (1969). . . . . . . . . . . . . . . . . . . . . . . 28
Turner v. Safley,
482 U.S. 78 (1987). . . . . . . . . . . . . . . . 4, 10, 26, 27
United States v. 50 Acres of Land,
469 U.S. 24, 105 S. Ct. 451, 83 L. Ed. 2d 376
(1984). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Classic,
313 U.S. 299 (1941). . . . . . . . . . . . . . . . . . . . . . . 20

ix
United States v. Commodities Trading Corp.,
339 U.S. 121 (1950). . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Frazier,
408 F.3d 1102 (8th Cir. 2005). . . . . . . . . . . . . . . 20
West Virginia State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943). . . . . . . . . . . . . . . . . . . . . . . 23
West v. Atkins,
487 U.S. 42, 101 L. Ed. 2d 40, 108 S. Ct. 2250
(1988). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
Wong Yang Sung v. McGrath,
339 U.S. 33 (1950). . . . . . . . . . . . . . . . . . . . . . . . 27
Wood v. Strickland,
420 U.S. 308 (1975). . . . . . . . . . . . . . . . . . . . . . . 33
Xiao v. Rodriguez,
No. A18-0646, 2019 WL 1983488 (Minn. Ct. App.
May 6, 2019), review denied (Aug. 6, 2019). . . . . 1
Zwick v. Regents of the Univ. of Mich.,
2008 U.S. Dist. LEXIS 34472 (E.D. Mich.
April 28, 2008). . . . . . . . . . . . . . . . . . . . . . . . 13, 23
STATUTES
20 U.S.C. § 1681, et seq. . . . . . . . . . . . . . . . . . . . . . 28
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
Minn. Stat. § 606.01 . . . . . . . . . . . . . . . . . . . . . passim

x
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. XI . . . . . . . . . . . . . . . . . . . . 13, 14
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . 3
U.S. Const. amend. XIV, § 5 . . . . . . . . . . . . . . . 13, 14
U.S. Const. art. III . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. art. 8. Cl. 1 . . . . . . . . . . . . . . . . . . . . . . 14
OTHER AUTHORITIES
132 Cong. Rec. 28. 625 (1986) . . . . . . . . . . . . . . . . . 14
Orgel, just compensation, in SYMPOSIUM: THE
PRACTICAL
PROBLEMS
OF
CONDEMNATION (The Association of the Bar
of the City of New York, Committee on Real
Property Law 1965) . . . . . . . . . . . . . . . . . . . . . . 15

1
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully requests that a Writ of
Certiorari be issued to review the Denial of his appeal
by the Supreme Court of Minnesota on August 6, 2019.
OPINIONS BELOW
The August 6, 2019 order denying petition for
further review in the State of Minnesota Supreme
Court is reproduced at App. 1. The May 6, 2019 opinion
in the State of Minnesota Court of Appeals is
reproduced at App. 2. The February 22, 2018 order in
the State of Minnesota District Court is reproduced at
App. 27. The February 17, 2017 order in the State of
Minnesota District Court is reproduced at App. 39.
BASIS FOR JURISDICTION IN THIS COURT
The February 17, 2017 and the February 22, 2018
Decisions by the Minnesota district court, and the
subsequent May 6, 2019 Order of in the Minnesota
Court of Appeals denied Petitioner’s appeal, are
abrasive to Petitioner’s constitutional rights.
Minnesota Court of Appeals denied important
questions of federal law as it pertains to § 1983, First
Amendment Retaliation, Fifth and Fourteenth
Amendment violations. The lower court’s ruling is ripe
for federal review. Additionally, the Minnesota
Supreme Court’s Order on August 6, 2019, denying
Petitioner’s motion for further review, enabled and
exacerbated the Minnesota lower courts’
unconstitutional findings. The Court of Appeals’
opinion can be found at Xiao v. Rodriguez, No. A180646, 2019 WL 1983488 (Minn. Ct. App. May 6, 2019),
review denied (Aug. 6, 2019).

2
The statutory provision believed to confer on this
Court jurisdiction to review on a writ of certiorari the
judgment or order in question is U.S. Const. art. III.
and 28 U.S.C. §1257.
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND
REGULATIONS INVOLVED
42 U.S.C. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of
Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of
the District of Columbia.
U.S. Const. amend. I.
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of

3
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
government for a redress of grievances.
U.S. Const. amend. V.
No person shall be held to answer for a
capital, or otherwise infamous crime, unless on
a presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
U.S. Const. amend. XIV, § 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.

4
Minn. Stat. § 606.01
No writ of certiorari shall be issued, to
correct any proceeding, unless such writ shall be
issued within 60 days after the party applying
for such writ shall have received due notice of
the proceeding sought to be reviewed thereby.
The party shall apply to the Court of Appeals for
the writ.
STATEMENT OF THE CASE
This Petition brings a challenge to the Minnesota
district court’s and the court of appeals’ refusal to hear
the § 1983, First Amendment Retaliation, Fifth and
Fourteenth Amendments violations claims in an action
against the University of Minnesota (UMN). The
Petitioner’s central argument is that § 1983 protection,
First Amendment Retaliation, Fifth and Fourteenth
Amendments violations, and subsequent case law,
provide for tangible remedies. Moreover, state courts
neglected to apply Turner deference when they refused
jurisdiction over several of Petitioner’s listed
grievances in his initial complaint. See Turner v.
Safley, 482 U.S. 78 (1987). Petitioner requests that
this Court grant Certiorari so the Court may address
novel and important questions of Constitutional and
federal law, namely, a) whether state courts must
apply this Court’s deference standards; b) whether the
Fifth and Fourteenth Amendments can prevail a state
status (Minn. Stat. § 606.01) when deciding whether
students can be awarded monetary relief (the “just
compensation”) for their property damages; c) whether
students at a state-owned university should have the
same federal legal rights as students at private

5
universities when state-owned university students
suffered property loss; d) what is the amount of
compensation to be considered “just” when a student’s
property was taken by a state government; e) whether
maliciously acting government officials should be
awarded “qualified immunity” in terms of First
Amendment retaliation; f) whether § 1983 provides for
relief which requires review, as applied in this case.
A. Factual Basis for the Writ.
On August 27, 2012, Petitioner was removed from
Patient care (a required rotation) at Fairview Infusion
(7126) four and half days before the rotation ended, and
the Respondents assigned 4 days as “professional
leave” even without Petitioner’s “request” (Sorrentino
Depo.1 p.28, line 1). This violated Respondents’ policy
(“No more than three days of professional leave or
vacation may be taken during any one rotation.
Students can request professional leave via ‘Time
Tracking’ function in E*Value.”). Respondents
illegitimately assigned an “F” to this rotation. On
September 12, 2012, after Petitioner worked for only
three and a half days, Petitioner was removed from
Medication History (an elective rotation) at UMMC
(7211) due to a patient’s complaint about Petitioner’s
English accent. (Compl. ¶41,42,47,187,188.) Petitioner
passed an English proficiency evaluation before the
rotation, and during the three and half days, Petitioner
successfully interviewed approximately sixteen (16)
patients without any complaint from patients. (Compl.

1

Sorrentino’s deposition transcript was submitted to the District
Court as Ex. F.

6
¶42.) The preceptor never gave any grade to Petitioner
for this rotation, but Respondents assigned an “F” to
this rotation in violation Respondents’ policy (Compl.
¶56, 95.) Due to the two F’s, Respondents was placed
on academic probation. (Compl. ¶62.) By February 21,
2013, Petitioner has successfully repeated 72112 and
was repeating 7126 at Walgreens. Rodriguez informed
Petitioner that the probation would be “automatically”
removed per policy once Petitioner passed 7126 at
Walgreens ending on March 29, 2013. (Compl. ¶64, 65.)
On approximately April 25, 2013, Prof. Johnson
highlighted all of the questions that Petitioner
answered wrong in an examination with a pink
highlighting marker and lifted this highlighted
examination sheet in front of Petitioner and another
resident student to publicly humiliate Petitioner as
“one of the three (3) worst students” during Johnson’s
“thirty-five (35) or thirty-six (36) years of” teaching.
Johnson further announced, in front of the student,
that the Petitioner’s grade on the examination was “a
low D” …… (Compl. ¶70.) Rodriguez was Johnson’s
supervisor. AFTER (emphasis added) Petitioner
reported Johnson directly to the school (free speech

2

After Petitioner allegedly failed his 7211 at UMMC, Petitioner
successfully repeated 7211 at Arbit by December 21 of 2012 (The
Email of Haeg, Director of Student Services, dated January 2,
2013. This email was disclosed to Petitioner during the Discovery
of this litigation, and was submitted to the District Court as Ex.
DD). Later, Petitioner successfully passed another 7211 equivalent
elective at Fagron by February 22 of 2013. Petitioner’s Fagron was
labeled as 7213 while some of Petitioner classmates’ Fagron was
labeled as 7211 because all electives (7211, 7212, and 7213) were
treated the same per policy. (Compl. ¶21, 66.)

7
right) bypassing Rodriguez, Rodriguez initiated
numerous retaliations against the Petitioner. Briefly:
i)

On May 17, 2013, Rodriguez made her first
false accusation to the school that the
Petitioner had “never repeated 7211” because
“the three selective courses are treated
substantially different.” (Compl. ¶78.) Due
to Rodriguez’s false statement, Petitioner
was illegitimately and maliciously kept on
probation after March 29, 2013.

ii)

On July 22, 2013, Petitioner presented
evidence that all three (3) electives (7211,
7212, and 7213) were treated the same per
policy. For example, as mentioned above,
Petitioner’s Fargon was labeled as 7213
while his classmates’ Fargon was registered
as 7211. (Compl. ¶89, also 21, 66.) On
July 22, 2013, Rodriguez made her second
false accusation that failed rotations were
placed after “all scheduled rotation” and that
the Petitioner had never repeated the
allegedly failed course 7211 by March 29,
2013 (Compl. ¶91.)
Due to this false
statement of Rodriguez’s, Petitioner was
illegitimately and maliciously kept on
probation after March 29, 2013.

iii)

On September 12, 2014, Petitioner presented
evidence that Rodriguez’s second false
accusation violated the school policy and also
contradicted the fact that Petitioner’s
allegedly failed rotation was repeated before
the scheduled rotations. (Compl. ¶96, 97.)

8
Then, Rodriguez made her third false
accusation that Petitioner needed to complete
a “patient care” elective in order to be
removed from the probation (Compl. ¶98.)
Due to this false statement of Rodriguez’s,
Petitioner was illegitimately and maliciously
kept on probation after March 29, 2013.
In his Appeal to Vice President Jackson on
October 26, 2014, Petitioner presented evidence that
a) at least two Petitioner’s classmates had already
graduated without taking any “patient care” elective
(Compl. ¶99), b) After Petitioner allegedly failed his
Medication History (labeled as 7211) and BEFORE
(emphasis added) Petitioner reported Johnson, none of
Petitioner’s electives scheduled by Rodriguez were
“patient care” electives (Compl. ¶69), c) school policy
prohibits students from repeating a “patient care”
elective because all of the five (5) required rotations
were “patient care” courses. (Compl. ¶164) d) the
Student Handbook does not distinguish 7211, 7212,
and 7213 among the sixty-one (61) electives, which
were neither assigned to a specific registration number,
i.e., 7211, 7212, or 7213 nor classified as “patient care”
or “not patient care” (Compl. ¶21); e) all the abovementioned false accusations of Rodriguez’s contradicted
the facts and violated the school policies, and
f) Petitioner’s probation should have been removed by
March 29, 2013 and accordingly, Petitioner should have
not been dismissed. Per school policy, Vice President
Jackson was required to “issue (his) decision within 30
calendar days” of October 26 of 2014, and he never
informed Petitioner of any “compelling reasons for
delay” (Compl. ¶103.) After almost four (4) months on

9
February 23, 2015, Vice President Jackson denied the
Petitioner’s Appeal, depriving Petitioner of his right to
have his Complaint heard on the University level.
(Compl. ¶104.)
Rodriguez’s intentional, malicious, and repeated
false accusations illegitimately kept Petitioner on
probation while a grade of D from Johnson
illegitimately dismissed Petitioner from the University
when Petitioner almost graduated. At the time of being
wrongfully dismissed, Petitioner had paid the
University over $163,000 for his tuition, excluding
other expenses. At the time of the dismissal, Petitioner
had only three (3) five-week rotations left before he
would otherwise graduated (Compl. ¶88). Without
probation, Petitioner could not be dismissed because a
grade of D is a passing grade if a student is not on
probation per school policy. (Compl. ¶82)
Other disparate treatments include, but not limited
to, a) Caucasian and non-disabled students were
allowed 1-2 weeks or other remedies to pass their
rotations instead of being given a failing grade; (Compl.
¶61.) b) Petitioner was denied access to medical
records, whereas Caucasian students were provided
access to such records. (Compl. ¶85.) c) After Petitioner
went over Rodriguez’s head to report Johnson to the
school, Rodriguez insisted that Petitioner go back to
Johnson with the intention of psychologically torturing
Petitioner. Rodriguez further threatened that if
Petitioner did not go back to Johnson, she would send
Petitioner to the Academic Standing Committee (ASC),
where she would propose a dismissal decision. (Compl.
¶76) d) During the ASC hearing, although Rodriguez

10
was not an ASC member, she actively joined the ASC
deliberation after Petitioner was required to leave the
room, proposed to dismiss Petitioner, and argued that
Petitioner should be dismissed from the school while
Petitioner was not present to defend himself. (Compl.
¶81) e) After Petitioner reported Johnson to the school,
Johnson sent Petitioner two text messages, stating that
Petitioner had to move out of his apartment (leased
from a third party), and later went to Petitioner
apartment in person to ask that Petitioner to move out
more than one (1) month before the lease would end.
(Compl. ¶77)
Petitioner proceeded to file a complaint in
Minnesota district court. In his complaint, Petitioner
asserted various claims including, breach of contract,
promissory estoppel, unjust enrichment, First
Amendment, Fifth and Fourteenth Amendments
violations per 42 U.S.C. § 1983.
The district court granted, in part, and denied, in
part, the motion and dismissed all of Petitioner’s claims
with the exception of the First Amendment Retaliation
claim against Respondents. After discovery was
completed, the district court granted Respondents’
motion and dismissed the remaining First Amendment
claim. The district court noted that they did not have the
jurisdiction to review the school’s adjudication per Minn.
Stat. § 606.01. In coming to this conclusion, the district
court employed a heightened scrutiny standard of review
rather than the prescriptions found in Turner.
Additionally, the district court noted that Petitioner’s 42
U.S.C. § 1983 equal protection claim did not consist of a
claim upon which relief could be granted.

11
Petitioner then appealed to the Minnesota Court of
Appeals, and, on May 6, 2019, the court of appeals
issued an opinion affirming the district court’s prior
determinations. Lastly, the Supreme Court of
Minnesota denied Petitioner’s request for further
review on August 6, 2019.
This Petition for Writ of Certiorari followed.
REASONS TO GRANT THIS PETITION
I.

THE MINNESOTA SUPREME COURT,
COURT OF APPEAL, AND THE DISTRICT
COURT (COLLECTIVELY, “MN COURTS”)
HAVE DECIDED AN IMPORTANT
QUESTION OF FEDERAL LAW THAT HAS
NOT BEEN, BUT SHOULD BE, SETTLED
BY THIS COURT.

The fundamental issue of this case is whether a
state law can be used to deprive a citizen’s property
rights, which were protected through the Fifth and
Fourteenth Amendments, “without just compensation”.
The US Supreme Court ruled that educational right is
a property right (public school students “have property
and liberty interests” in their education. Goss v. Lopez,
419 U.S. 565 (1975). However, this Court needs to
further settle whether a public school student is
entitled to be awarded a monetary relief (the “just
compensation”) when his property right was wrongfully
deprived. Minnesota State Statutes § 606.01 does not
allow its state-owned university (UMN) students to be
awarded monetary relief.
The UMN is considered to be an administrative
body in the state of Minnesota. The MN courts ruled

12
that “[i]t is well-established that a writ of certiorari to
the Court of Appeals is the appropriate method of
reviewing an administrative body’s quasi-judicial
decisions,” and “[t]his Court has no jurisdiction to
pursue de novo review of these claims.” (MN District
court Order of February 17, 2017), and “[a] party must
apply to the court of appeals for a writ of certiorari
‘within 60 days after the party applying for such writ
shall have received due notice of the proceeding sought
to be reviewed thereby.’ Minn. Stat.§ 606.01 (2018).”
(MN court of appeal’s Decision of May 6, 2019).
However, the administrative body’s administrative
/ quasi-judicial procedures do not permit aggrieved
students to recover “monetary damages” for their
property loss Thus, in addition to presenting claims in
this litigation that were never adjudicated by the
administrative body, Petitioner did not even have the
opportunity to recover the monetary damages he seeks
in this litigation. Specifically, Petitioner’s complaint
seeks damages for “substantial losses in earnings,
bonuses, job benefits . . . , expenses incurred in the
search for other employment . . . , and mental,
emotional, and physical anguish,” none of which were
recoverable through the “administrative body’s quasijudicial” proceedings. (Compl. ¶125-126, 178, 227, 243,
259) The administrative body has deprived its students
of the right to recover damages for their property loss
through its administrative / quasi-judicial proceedings
and, at the same time, has precluded the same
students from being able to pursue a separate cause of
action at the district court to recover those damages.
While the administrative body’s self-serving motives
are understandable, this Court should not condone

13
such Catch-22 tactics that deprive vulnerable students
of their constitutional right to due process of law and
access to the courts.
MN courts’ decisions immediately created two legal
dilemmas inter-stately and intra-stately under one
U.S. Constitution: a) A district court in Michigan court
awarded monetary relief (the “just compensation”) to a
student of its state-owned university for the same
property loss as Petitioner’s. Zwick v. Regents of the
Univ. of Mich. 2008 U.S. Dis. LEXIS 34472 (E.D. Mich.
April 28, 2008); b) Minnesota Court of Appeals
awarded monetary relief to Alsides (a student at a
private MN education institution) for the same
property loss as Petitioner’s (a student at MN-owned
education institution). Alsides v. Brown Institute, Ltd.,
592 N.W.2d 468, 472 (Minn. Ct. App. 1999), but
Minnesota Court of Appeals denied Petitioner’s request
for monetary relief for the same property loss. The
nature of these dilemmas is that MN made laws or
administrative policies to abridge MN-owned
university students’ privileges of their property right
protected by the Fifth and Fourteenth Amendments.
This Court needs to settle these legal dilemmas.
As seen in Zwick, there is room for federal courts to
award monetary relief. It follows that the same should
apply to the states. Moreover, the retaliation of § 1983
and § 5 of the Fourteenth Amendment abrogate state
Eleventh Amendment and sovereign immunity to suit
in Federal Court. Albright v. Oliver, 510 U S. 266, 271,
144 S. Ct. 807, 127 L. Ed. 2d, 114 (1994). In addition,
Respondent UMN is a recipient of Federal funds, and
Congress conditions state agencies receiving Federal

14
funds constitutes a waiver of the Eleventh Amendment
and sovereign immunity to suit 132 Cong. Rec. 28. 625
(1986). Additionally, the state cannot side-step the
provisions of article U.S. Constitutional Amendment
XIV, § 5, and Article 8. Cl. 1.
II.

MN COURTS HAVE DECIDED AN
IMPORTANT FEDERAL QUESTION IN A
WAY THAT DIRECTLY CONFLICTS WITH
RELEVANT DECISIONS OF THIS COURT
IN TERMS OF PROPERTY PROTECTION.

The US Supreme Court has long recognized that
property owners may bring Fifth Amendment claims
for compensation as soon as their property has been
taken, regardless of any other post-taking remedies
that may be available to the property owner. Jacobs v.
United States, 290 U.S. 13 (1933). Additionally, this
Court has held that the compensation remedy is
required by the Constitution in the event of a taking.
First English Evangelical Lutheran Church of Glendale
v. County of Los Angeles, 482 U.S. 304 (1987). A
property owner acquires a right to compensation
immediately upon an uncompensated taking because
the taking itself violates the Fifth Amendment. San
Diego Gas & Elec. Co. v. San Diego, 450 U.S. 621, 654
(1981). The property owner may, therefore, bring a
claim under §1983 for the deprivation of a
constitutional right at that time. Knick v. Township of
Scott, Pennsylvania, No. 17-647, 588 U.S. ____ (2019).
Further, the US Supreme Court also established the
“total takings” test for evaluating whether a particular
regulatory action constitutes a regulatory taking that

15
requires compensation. Lucas v. South Carolina
Coastal Council, 505 U.S. 1003, (1992).
Over the past decades, this Court has established
several practical guidelines concerning the amount of
compensation that is “just” for real estate owners
whose properties were taken by local governments.
Courts usually awarded condemnees the fair market
value of the property taken by the government because
it is an objective and workable standard with two
specific exceptions recognized by this Court --- when
fair market value is too difficult to ascertain, and when
application of the fair market value rule would result
in “manifest injustice” to the owner of condemned land.
(Orgel, just compensation, in SYMPOSIUM: THE
PRACTICAL PROBLEMS OF CONDEMNATION 10
(The Association of the Bar of the City of New York,
Committee on Real Property Law 1965; United States
v. Commodities Trading Corp., 339 U.S. 121, 123
(1950). In her concurring opinion in United States v. 50
Acres of Land, 469 U.S. 24, 105 S. Ct. 451, 83 L. Ed. 2d
376, Justice O’Connor suggested that “manifest
injustice” results when fair market value for public
condemnees “deviates significantly from the makewhole remedy intended by the just compensation
clause.” 105 S. Ct. 451, 459 (1984)).
In contrast to the foregoing well-established and
workable guidelines concerning the just compensation
when the government takes real estate owners’
property, no guidelines have been ever established by
this Court concerning the just compensation when a
state government (e.g. the UMN) takes a student’s
property (i.e., wrongfully dismisses this student). Like

16
an owner of real estate who pays his real estate, a
university student pays his education. That is, both of
them buy the property, which is protected through the
Fifth and Fourteenth Amendments (education rights
are a property right. Goss v. Lopez, 419 U.S. 565, 1975).
Therefore, after a state-owned university wrongfully
dismisses a student, a workable guideline has to be
developed by this Court concerning how the “just
compensation” is calculated. This court has never
addressed the questions in this regard.
Petitioner respectfully requests that this Court
consider the following facts when this Court develops
a workable guideline for the just compensation for
students: i) the value of the Doctor of Pharmacy or
pharmacist license that Petitioner would have if he
were not wrongfully dismissed; ii) the substantial loss
of earnings, bonuses, and job benefits that Petitioner
would not lose if he were not wrongfully dismissed;
iii) six (6) years of full time study (two (2) years of prepharmacy and four (4) years of pharmacy).
iv) Petitioner had paid the University over $163,000 for
his tuition at the time of wrongfully dismissed; and
v) other expenses related to his education (university
housing, educational expenses except the tuition, etc.).
Petitioner also respectfully requests that this Court
consider the following: A student pays an educational
institution for education with the hopes of obtaining a
certain degree. When the student is wrongfully
dismissed from the program without the degree, the
institution walks away with the student’s tuition and
the student walks away heavily in debt without a
degree. Even though the student does get the benefit of
the education received prior to dismissal, that

17
education in professional schools like Petitioner’s is
practically worthless because without the degree, a
student cannot apply for the license that he / she paid
for his / her education. Therefore, at the time of
wrongful dismissal, the value of a student’s property of
education is zeroed.
In contrast to the protection extents of the foregoing
real estate owners’ rights, the MN court decisions
deprived Petitioner of his constitutional property right
for just compensation after his property was wrongfully
taken. These decisions directly conflicts with all the
foregoing decisions previously made by this Court.
Moreover, that state-owned university students
have to go through the administrative body’s internal
process without the right to pursue a cause of action at
court for their property being wrongfully taken directly
conflicts with a recent decision of this Court. (“because
a taking without compensation violates the selfexecuting Fifth Amendment at the time of the taking,
the property owner can bring a federal suit at that
time.” Knick v. Township of Scott, Pennsylvania,
No. 17-647, 588 U.S. ___ (2019).
In addition, that state-owned university students
have to go through the administrative body’s internal
process without the right to pursue a cause of action at
court for their property being wrongfully taken
abridged students constitutional rights in terms of the
statute of limitation. Students have only 60 days to file
a writ of certiorari per Minn. Stat. § 606.01 while they
would have approximately four (4) years to pursue a
cause of action at court for their property being
wrongfully taken.

18
The three MN government branches united to
unconstitutionally took their state-owned university
students’ properties “without just compensation”. The
administrative body (the Respondents) made a policy
that prohibits students through a administrative /
quasi-judicial procedure from being able to recover
“monetary damages” for their property loss (“may not
award monetary damages, or direct disciplinary actions
against any employee of the university.”3) the MN
courts established “that a writ of certiorari to the Court
of Appeals is the appropriate method of reviewing an
administrative body’s quasi-judicial decisions” (ibid.);
and the legislature passed Minn. Stat. § 606.01 (2018).
The nature of the Amendments is to protect the people
from being unfairly treated by a local government. This
Court needs to settle this significant discrepancy
between the Amendments (V, XIV) and MN
judicial/quasi-judicial procedures.

3

Addressing Student Academic Complaints,
https://policy.umn.edu/education/studentcomplaints (last accessed
August 15, 2018).

19
III.

THE MN COURTS DECIDED AN
IMPORTANT § 1983 QUESTION THAT IS
NOT CONSISTENT WITH THE DECISIONS
OF OTHER COURTS AND CONFLICTS
WITH § 1983 AND AMENDMENTS; THIS
COURT SHOULD SETTLE THESE
DISCREPANCIES INCLUDING THE
APPLICABILITY OF THE TURNER
STANDARD.

This Court should accept this Petition because the
state district court erred in dismissing Petitioner’s
§ 1983 claims for failure to state a claim upon which
relief could be granted. Petitioner seeks recovery
under § 1983 for property loss, alleged violation of his
right to privacy, denial of equal protection, and due
process. To hold Respondents liable under § 1983,
Petitioner must demonstrate that the conduct he
complains of was “committed by a person acting under
color of state law,” and such conduct deprived him of “a
right secured by the Constitution and laws of the
United States.” Roe v. Humke, 128 F.3d 1213, 1215 (8th
Cir. 1997) (quoting West v. Atkins, 487 U.S. 42, 48, 101
L. Ed. 2d 40, 108 S. Ct. 2250 (1988); See DuBose v.
Kelly, 187 F.3d 999, 1002 (8th Cir. 1999)
In Lugar v. Edmondson Oil Co., 457 U.S. 922, 935
n.18 (1982), the Court determined that “Conduct
satisfying the state-action requirement of the
Fourteenth Amendment satisfies [Section 1983’s]
requirement of action under state law.” “The
traditional definition of acting under color of state law
requires that the defendant in a § 1983 action have
exercised power ‘possessed by virtue of state law and

20
made possible only because the wrongdoer is clothed
with the authority of state law.’” West v. Atkins, 487
U.S. 42, 49 (1988) (quoting United States v. Classic, 313
U.S. 299, 326 (1941))
Here, it is evident that the Respondents who work
at UMN acted under color of state law. Respondents,
under the veil of their public institution, took
detrimental action against Petitioner (wrongfully
dismissed Petitioner or deprived Petitioner of his
property). Notably, in Lugar, the court noted that
“state employment is generally sufficient to render the
defendant a state actor. Lugar at 935. It is worth
noting that the state-action requirement was met in
state court, and thus is satisfied for the purpose of the
Petition.
To prevail in an Equal Protection Clause claim,
Petitioner can proffer similarly situated individuals
treated differently or through direct evidence of
discrimination. United States v. Frazier, 408 F.3d 1102,
1008 (8th Cir. 2005). In the present case, the following
instances, provide instances of disparate treatment
between Petitioner and Caucasian students, as alleged
in the Complaint:
36. The Plaintiff was never trained per the UMN
policy; the Plaintiff was never trained per the
UMN policy on his interactions with patients,
although this was the main purpose of the
course.
37. UMMC did not give any extra training to the
Plaintiff when compared with other students.

21
83. Dr. Rodriguez, in violation of UMN policy
and ACPE policies, officially enrolled the
Plaintiff’s Acute Care course at the Lake Region
Hospital, but the actual course occurred within
Dr. Johnson’s personal consulting company (“Dr.
Johnson’s Consulting”), which signed consulting
contract with multiple nursing homes or similar
facilities hours of driving apart and hours of
driving away from the Lake Region Hospital,
where Dr. Johnson only occupies or rents about
3 or 4 rooms for his company. Per UMN and
ACPE policies, the Acute Care has to be in
hospitals (“inpatient setting”).
84. Under the established practice, students of
the Acute Care have inpatient profiles access
and review patient profiles on a daily basis.
However, while the Plaintiff was at Dr.
Johnson’s Consulting, he had no patient profile
access to the Lake Region Hospital. The Plaintiff
only audited three (3) meetings of physicians
and nurses at the Lake Region Hospital. Dr.
Johnson required the Plaintiff to count pills that
otherwise, Dr. Johnson had to count himself.
85. Even for the three (3) meetings audited, the
Plaintiff was not given full opportunities. The
Plaintiff was not given patients’ profiles (“med
records”) while the white students had the
patients’ profiles. After the meeting, when the
Plaintiff asked one white student whether he
could read the profile, the white student told the
Plaintiff that he needed to get permission from
the pharmacist. Dr. Johnson, in front of another

22
student on April 25, 2013, falsely accused the
Plaintiff of taking the patient’s profile.
86. The Plaintiff was not given the Course
schedule while the white students had the
schedule. The Plaintiff borrowed the schedule
from one, white student and made a copy of the
schedule. However, Dr. Johnson accused the
Plaintiff of not professional” due to making a
copy of the schedule.
99. Prior to, during, and after the September 12,
2014 hearing, UMN refused to acknowledge or
address the Plaintiff’s complaints or arguments
regarding the illegal actions of UMN.
Specifically, i) why the Plaintiff’s, Fagron could
not be treated as 7211 while other students’
Fagron was, treated as 7211; and ii) why the
Plaintiff had to take a “patient care” elective
while other students had graduated without
taking any “patient care” elective.
117. UMN violated its own policies, rules, and
established practice by treating the Plaintiff
differently than other students regarding
academic requirements.
163. UMN, in violation of its own policies, rules,
and established practice, required the Plaintiff
to take a “patient care” elective course that other
students had graduated without taking.
207. The individual Defendants, in violation of
UMN’s own policies, rules, and established
practice, required the Plaintiff to take a “patient

23
care” elective course that other students had
graduated without taking.
(Compl. ¶36-37; 83-86; 99; 117; 163; 207.)
These facts adequately show that similarly situated
Caucasian students were treated more favorably than
Petitioner. Notably, the state district court did not take
the time to adjudicate this matter because of their overdeferential reliance on the school board’s quasi-judicial
proceeding.
Ultimately, a state cannot conduct themselves in a
way that either burden a fundamental right, target a
suspect class, or intentionally treat one differently from
the others without any rational basis. Zwick v. Regents
of the Univ. of Mich., 2008 U.S. Dist. LEXIS 34472
(E.D. Mich. April 28, 2008). Importantly, educators are
not afforded absolute discretion. In West Virginia State
Bd. of Educ. v. Barnette, 319 U.S. 624 (1943), the Court
noted that school boards are responsible for
important, delicate, and highly discretionary
functions, but none that they may not perform
within the limits of the Bill of Rights. That they
are educating the young for citizenship is reason
for scrupulous protection of Constitutional
freedoms of the individual, if we are not to
strangle the free mind at its source and teach
youth to discount important principles of our
government as mere platitudes.
Barnette at 627.
Moreover, in Hazelwood School District v.
Kuhlmeier, 484 U.S. 260 (1980), the Court explained

24
that while deference is given to local school boards on
the daily operations of school systems, the Court will
intervene where their decisions are contrary to the
Constitution.
Institutional academic freedom should not be used
to squash the academic freedom rights of students or
professors. The purpose of institutional academic
freedom in preserving a robust exchange of ideas would
be undermined if universities could invoke academic
freedom to shelter themselves when they commit
constitutional violations. Here, the lower courts never
determined that Respondent’s decisions were made
under their academic freedom rights. It is worth noting
that Respondents did not afford Petitioner a ruling on
his dispute until the University proscribed time limit
was exceeded. Although this point alone is not
determinative, it points towards the abuse of discretion
Respondents exercised. This failure deprived Petitioner
of his property right to education without
constitutionally sufficient notice or opportunity to be
heard.
In Grutter v. Bollinger, 539 U.S. 306, 363 (2003), the
Court established if a decision is determined to be
academic, “good faith [on the part of the university] is
presumed absent a showing to the contrary.” Here,
there is ample evidence of bad faith on behalf of
Respondents. First, Petitioner was told that if he
completed the required courses, he would be taken off
academic probation. However, when it was time to
show good faith, UMN faculty reneged on their
promise. Second, during administrative proceedings,
Respondents refused to answer Petitioner’s questions

25
claiming that the school procedure “does not include a
discovery process such as in litigation.”4 However, later
during this litigation, respondents claimed that their
administrative process was quasi-judicial. They
thereby denied MN Court’s jurisdiction over the
matter. Third, during the administrative proceedings,
respondents intentionally refused to disclose evidence
that is favorable to Petitioner. It was not until the
discovery in this litigation that such evidence was
disclosed. (See Section V). Fourth, during the
administrative hearing, Respondents even prohibited
Petitioner from playing audio files that demonstrated
Respondents’ false allegations.
Moreover, the initial findings of retaliation of lower
court drastically call into question the degree of good
faith shown by Respondents. Even if the state court
ultimately dismissed the retaliation claims, there was
enough there for a trial court to determine that there
was not good faith. Subsequently, the district court
should have taken up the issue, rather than dismissing

4

The Respondents’ email of June 24, 2014 (Mr. Latz was
Petitioner’s counsel): “There is no provision in the rules that
allows for Mr. Latz’s request. In formal litigation, there is
discovery such as this. The formal conflict resolution process,
though, does not include a discovery process such as in litigation.
The “eliminate surprises” term relates to the pre-prehearing
conference. It has no connection with what Mr. Latz is asking
respondent to do. Respondent is required to provide a written
response to the complaints, and this will be done. And we will come
prepared to participate in the pre-hearing conference. Anything
more than this would be a fundamental shift from the University’s
process and rules.”

26
it for failure to state a claim of which relief could be
granted.
It is reasonable to conclude that in this case, an
institution is as likely as, or more likely than a court to
err in making its own decisions and that the
administrative costs of more searching judicial review
of that institution’s decisions are not particularly high.
It is even more reasonable to believe that the
institution intentionally made an unconstitutional
decision that was favorable to itself given its bad faith
as described throughout this petition. Thus, a rule of
deference would not satisfy the court’s desire to
minimize either error costs or administrative costs.
And in some middle category of cases, a court might
conclude that although another institution is
epistemically superior to the court, it is not so
epistemically superior, and the administrative costs of
more probing review are not so great, as to justify a
general rule of deference.
The UMN did not exercise good faith and
disparately treated Petitioner. Similar to the claims in
this instance, in Turner, the Court promulgated a new
“reasonableness” standard by which prisoners’
constitutional claims will be judged. The Court held
that a prison regulation is constitutionally valid if it
reasonably relates to a legitimate penological objective.
The Turner test is of monumental significance as it
applies to all cases where prisoners assert that a penal
regulation has violated their constitutional rights,
regardless of the type or degree of the deprivation.
Similarly, the Turner standard should apply here.

27
Under the first prong of the Turner test, whether
there is a valid relationship between the regulation and
a legitimate governmental interest, it clear that there
is not a valid relationship between state law and
University policies and their interest in providing
education to all. As to the second prong of the
reasonableness test, whether there are alternative
means of exercising the asserted right, Respondents
could have stuck to their official promise to lift
Petitioner off academic probation once he met the
requirements so that Petitioner could not be dismissed.
Additionally, UMN officials should have met and
discussed their concerns with Petitioner to provide him
proper notice of his imminent hardship. Moreover, the
Minn. Stat. § 606.01 deprives Petitioner of his Due
Process rights. Ultimately, the district court should
have employed strict-scrutiny as provided in Turner.
IV.

PETITIONER’S DUE PROCESS RIGHTS
WERE
VIOLATED
BY
THE
RESPONDENT’S BAD FAITH QUASIJUDICIAL PROCEEDING, AND HIS CASE
SHOULD BE ALLOWED TO GO TO A FAIR
TRIAL; THIS COURT NEEDS TO DECIDE
THE IMPORTANT QUESTION IN THIS
REGARD.

This Court has stated that fair trial in a fair
tribunal is a basic requirement of due process and that
in any administrative adjudicatory proceeding. Wong
Yang Sung v. McGrath, 339 U.S. 33, 50 (1950). One of
the most paramount pillars in discerning the fairness
of a proceeding is the existence of notice.

28
Here, Petitioner was not given adequate notice.
First, he received positive reviews from Respondent’s
all the up to the moment before his dismissal. Second,
several meetings and hearing took place without
Petitioner present. This obviates a question of one’s
right to defend oneself in front of one’s accuser. Third,
during administrative procedure, the Respondents even
refused to answer Petitioner’s questions claiming that
the school procedure “does not include a discovery
process such as in litigation.”5 Fourth, during
administrative procedure, Respondents intentionally
hid evidence that is favorable to Petitioner, and it was
not until the discovery in this litigation that such
evidence was disclosed. (See Section V).
Individual students who suffer retaliation from
instances where higher institutions are discriminatory
under 20 U.S.C. § 1681 et. Seq., have a private cause of
action under § 1983 retaliation. See Sullivan v. Little
Hunting Park, Inc., 396 U.S. 229 (1969); Jackson v.
Birmingham Board of Education, 544 U.S. 167 (2005).
The lower court judgment order is clearly erroneous.

5

The Respondents’ email of June 24, 2014 (Mr. Latz was
Petitioner’s counsel): “There is no provision in the rules that allows
for Mr. Latz’s request. In formal litigation, there is discovery such
as this. The formal conflict resolution process, though, does not
include a discovery process such as in litigation. The “eliminate
surprises” term relates to the pre-prehearing conference. It has no
connection with what Mr. Latz is asking respondent to do.
Respondent is required to provide a written response to the
complaints, and this will be done. And we will come prepared to
participate in the pre-hearing conference. Anything more than this
would be a fundamental shift from the University’s process and
rules.”

29
See Pullman-Standard v. Swint, 456 U.S. 273, 286-291
(1982).
V.

THE MN COURTS WRONGFULLY MADE A
DECISION BASED ON ABSOLUTE
IMMUNITY THAT CONFLICTS WITH A
PREVIOUS DECISION OF THIS COURT;
MN COURTS’ DECISION WILL RESULT IN
SERIOUS CONSEQUENCES.
The District court ruled on February 17, 2017, that:
Dr. Rodriguez may be found to have retaliated
against Plaintiff. ... Dr. Rodriguez refused to
accommodate him when he asked to take a course
that did not require patient interaction. His
request to be accommodated was a protected
action. She enrolled him for Medication History
instead. When he had an altercation with a
patient, she removed him from the course and he
was given an “F” grade instead of an “I” grade.
When he attempted to get off academic probation,
she enrolled him in the wrong class, thus foiling
his chances of getting off academic probation.
Dr. Rodriguez also threatened to dismiss
Plaintiff from the program by referring him back
to ACS when he complained about
discriminatory treatment by Dr. Johnson.
Further, when the ACS reviewed Plaintiff’s case,
Dr. Rodriguez attended the hearing and stayed
for the deliberation of the board. Finally, she
allegedly “lied” in the Pharmacy School hearing
regarding how she directed Plaintiff and what
information she gave to him. If Dr. Rodriguez

30
did, in fact, conduct herself in the way outlined
here, then it is quite possible that she was
retaliating against Plaintiff. If this is the case,
then she was acting maliciously, which pierces
her qualified immunity.
Third and finally, Dr. Johnson may be found to
have retaliated against Plaintiff as well. When
Plaintiff took his Acute Care I course, Dr.
Johnson allegedly humiliated Plaintiff regarding
his grades before another student and accused
him of cheating in a humiliating and derogatory
way. Plaintiff then complained to UMN, going
over Dr. Rodriguez’s head. Soon after, Dr.
Johnson gave Plaintiff a “D” grade in his course
(which precipitated his dismissal). He also
allegedly harassed Plaintiff via text message and
by showing up at Plaintiff’s home, telling him
that he should move out of his apartment. Based
on these allegations, there may be some evidence
that Dr. Johnson retaliated against Plaintiff
because Plaintiff complained about him and
asked to be removed from his class after Dr.
Johnson humiliated him. Afterward, he gave
him a grade that would result in his dismissal
from the program and also harassed him. It is
clear that harassing a student and retaliating
against his complaint about discrimination are
malicious actions and would allow not qualify
Dr. Johnson to immunity under § 1983.
Therefore, Dr. Johnson and Dr. Rodriguez may
not be immune from liability based on the
standard for a motion to dismiss, which takes

31
facts in the light most favorable to the
Complaint.
During the Depositions, a) Petitioner played audio
files to Rodriguez, demonstrating that Rodriguez made
false accusations to the Hearing Committee regarding
the removal of the probation and Rodriguez admitted
that her statements were “inconsistent”; (Rodriguez
Depo.,6 p. 114, line 18 -- p. 118, line 12; Compl. ¶65,
98ii); b) Sorrentino, the preceptor who assigned
Petitioner’s 4 days as “professional leave”, admitted
“[f]or those four days, he did not request them”
(Sorrentino Depo.,7 p. 28, line 1); c) Reidt, the
Chairperson of the Hearing Committee, admitted the
Committee’s decision is “inconsistent with the policy”
regarding assigning 4 days as “professional leave” and
accordingly giving an F to Petitioner (Reidt Depo.,8 p.
26 lines 14-19; Compl. ¶101); d) additional evidence
was found to demonstrate that Rodriguez maliciously
retaliated against Petitioner directly resulting in the
dismissal.9
6

Rodriguez’s deposition transcript was submitted to the District
Court as Ex. Q.
7

Sorrentino’s deposition transcript was submitted to the District
Court as Ex. F.
8

Reidt’s deposition transcript was submitted to the District Court
as Ex. M.
9

On January 2, 2013, Haeg, Director of Student Services, informed
Rodriguez (rodre001@umn.edu) that Petitioner had successfully
repeated 7211 at Arbit, an elective (“[Petitioner’s] grade in 7211 is
showing as an ‘A’. Michelle is indicating that the ‘A’ comes from
Harvet Arbit.”). Therefore, Petitioner’s probation should have been

32
Despite that all the evidence found during the
Depositions supported Petitioner’s claims and
confirmed the qualified-immunity piercing malicious
actions as described in the above District court
Decision, the District court dismissed Petitioner’s first
Amendment retaliation claim in its second Decision
based on absolute immunity (“In the immediate case,
Defendants have been sued under §1983 in their
individual capacities as members of the UMN staff.
Each is state actors. As a result, they are entitled to
qualified immunity protection where appropriate.” The
District court ruled on February 22, 2018).
Taken all together, eventually, the fundamental and
important question is, and this court has to decide,
whether maliciously acting government officials should
be awarded absolute qualified immunity.
Actually, “[t]he law is settled that as a general
matter the First Amendment prohibits government
officials from subjecting an individual to retaliatory
actions ... for speaking out.” Hartman v. Moore, 547
U.S. 250, 256 (2006) (citations omitted). According to
the Minnesota courts, the University’s internal
removed by March 29, 2013 after he passed his 7126 at Walgreen’s.
Accordingly, Petitioner could not be dismissed even Johnson gave
Petitioner a D. But Rodriguez made one false accusation after the
other to inform the school that Petitioner had “never repeated
7211”. Rodriguez illegitimately and maliciously kept Petitioner on
probation after March 29, 2013 while a grade of D from Johnson
dismissed Petitioner from the University. Without probation,
Petitioner could not be dismissed because a grade of D is a passing
grade if a student is not on probation per school policy. (Compl.
¶82). Haeg’s email of January 2, 2013 was submitted to the
District Court as Ex. DD

33
processes that were manipulated to achieve this
unconstitutional result constitute quasi-judicial action,
Subsequently UMN and its employees will remain
absolutely immune from liability for First Amendment
retaliation they committed -- as long as they go through
the internal review process (emphasis added), where
they can refuse to answer students’ questions and
refuse to disclose any evidence that is favorable to
students, while prohibit students from presenting
evidence at the Hearing, the retaliation will be free and
without any consequence. This absolutely conflicts with
the fundamental spirit of our Constitution
Amendments and § 1983
In Forrester v. White, 484 U.S. 219, 224 (1988), this
Court cautioned that to “avoid unnecessarily extending
the scope ... of absolute immunity,” the functions
lawfully entrusted to particular officials must be
identified, and the effect of exposure to liability on
those functions evaluated. Wood v. Strickland, 420 U.S.
308 (1975), is this Court’s only decision directly
addressing claims for quasi-judicial immunity by school
officials. In Wood v. Strickland, it was emphasized by
this court that quasi-judicial immunity is only
permittable if avoiding personal liability will enable
government officials to do their job lawfully. Here, it is
important to emphasize that UMN officials did not act
lawfully. Rather, they acted with malice and
discrimination toward Petitioner.
Allowing UMN personnel to avoid personal liability
offends the rule of law. Furthermore, it allows public
institutions to violate the constitution while hiding
behind their own self-governance. In doing so, state

34
and federal courts alike are unable to spot and
adjudicate constitutional violations. They are thereby
enabling public institutions to act to the detriment to
any student they wish.
VI.

THE AVAILABILITY OF PUNITIVE
DAMAGES SHOULD BE CONSIDERED IN
THE CONTEXT OF AMENDMENTS AND IN
THE LIGHT OF NATURE OF LAW.

This Court has held that punitive damages are not
recoverable against a municipality in a § 1983 action.
City of Newport v. Fact Concerts, Inc., 453 U.S. 247,
271, 101 S. Ct. 2748, 69 L. Ed. 2d 616 (1981). However,
Petitioner urges the court to reconsider this notion for
several reasons. First, if persons such as Petitioner are
barred from relief, then what relief is available?
Second, in essence, this notion enables states like
Minnesota to shield their public employees and deprive
public school students of liberties private school
students enjoy. Third, this notion will essentially
encourage public universities and their employees to
act in their own best interest instead of abiding by the
law. Eventually, this will result in corruption
throughout our society.
VII.

AS THE LAST RESOURCE FOR JUSTICE
IN THIS NATION, THIS COURT IS
OBLIGATED TO MAINTAIN THE
INTEGRITY IN THE U.S. HIGHER
EDUCATION.

American higher education produces significant soft
power for the United States. Secretary of State Colin
Powell, for example, said in 2001: “I can think of no

35
more valuable asset to our country than the friendship
of future world leaders who have been educated here.”
(http://forum.mit.edu/articles/soft-power-and-highereducation/, access on 10/19/2019) To keep this soft
power, integrity must be maintained in American
higher education. However, Respondents are hurting
this integrity: a) A professor of a famous American
university publicly humiliated a student; b) Another
professor made one lie after the other to retaliate this
student directly resulting in dismissing this student
from the university; c) Academic requirement is
different for different students (e.g., Petitioner had to
take a “patient care” elective while his classmates had
graduated without taking any “patient care” elective.
Compl. ¶98i, 99ii); ...... ; d) The Hearing Committee
defended Sorrentino, who “falsely claim [Petitioner]
completed 200 hours” by assigning 4 days as
“professional leave” while even Sorrentino herself
admitted in her deposition that “[f]or those four days,
[Petitioner] did not request them” (Sorrentino Depo.
p. 28, line 1. Sorrentino’s Depo. Was submitted to the
District Court as Ex. F.), and even concluded that the
school did not violate its policies ignoring all the facts
outlined above; ... etc.
In contrast, when Haruko Obokata made false
claims in her work, her employer, the RIKEN Center
for Developmental Biology in Japan, investigated the
false claims immediately and concluded Obokata’s false
claims were misconduct. (https://www.ncbi.nlm.nih.gov/
books/NBK519803/box/box002/?report=objectonly,
accessed on 10/19/2019) It is time for this Court to
review this case for the interest of this nation and to
maintain the integrity of higher education in the US.

36
For the reasons stated above, Petitioner respectfully
asks this Court to grant Certiorari.
CONCLUSION
For the foregoing reasons, this Petition for a writ of
certiorari should be granted.
Respectfully submitted,
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Attorney for Petitioner

